                                 UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF INSPECTOR GENERAL
                                                 501 I STREET, SUITE 9-200
                                              SACRAMENTO, CALIFORNIA 95814
                                         PHONE (916) 930-2388 • FAX (916) 930-2390



                                                        October 27, 2005

                                                                                                            Control Number
                                                                                                            ED-OIG/A09F0013
Jack T. O’Connell
State Superintendent of Public Instruction
California Department of Education
1430 N Street
Sacramento, CA 95814

Dear Superintendent O’Connell:

This Final Audit Report, entitled Professional Tutors of America and Los Angeles Unified
School District’s Compliance With Supplemental Educational Services Provisions, presents the
results of our audit. The purpose of the audit was to determine whether, for school years
2003-2004 and 2004-2005, (1) Los Angeles Unified School District (LAUSD) contracts with
Professional Tutors of America (PTA) for providing supplemental educational services (SES)
contained the elements specified in the Elementary and Secondary Education Act of 1965
(ESEA), as amended by the No Child Left Behind Act of 2001 and applicable Federal
regulations; (2) PTA performed the services for which it received payment under the contracts
and the services were provided in a manner consistent with the contract terms and Federal
requirements; and (3) PTA collects and maintains the data that will be used by the California
Department of Education (CDE) to evaluate the quality and effectiveness of the services offered
by the provider.



                                                     BACKGROUND


Title I, Part A of the ESEA requires local educational agencies (LEAs) to offer SES to students
from low-income families when the students attend a Title I school that is in the second year of
school improvement or identified for corrective action or restructuring.1 SES consist of tutoring,
remediation, and other educational interventions that are designed to increase the academic
achievement of students and are in addition to instruction provided during the school day.
State-approved SES providers, which were selected by the individual student’s parent or
guardian, provide the services to eligible students under agreements with LEAs. SES providers

1
 Under the No Child Left Behind Act of 2001, Title I schools that fail to make adequate yearly progress (AYP) for
two consecutive years are identified for school improvement. Title I schools are identified for corrective action if
they do not make AYP for four years, while Title I schools not making AYP for five years are identified for
restructuring. The “low-income family” determination is usually based on the student’s eligibility for free or
reduced price lunch under the National School Lunch Program.

            Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
Final Report
ED-OIG/A09F0013                                                                       Page 2 of 12


must align their instructional programs with state academic content standards and tailor their
services to the academic needs of individual students. CDE is the state educational agency
responsible for administering the ESEA, Title I, Part A program, approving SES providers, and
monitoring the quality and effectiveness of services offered by the approved providers.

PTA is a for-profit organization based in Brea, California that provides SES to students in the
California school districts. PTA, which was initially approved as an SES provider in California
for school year 2002-2003, provides one-on-one instruction in reading, language arts, and
mathematics to students in their homes. The tutoring services are provided after school or on
weekends. PTA served 536 LAUSD students in school year 2003-2004 and 1,172 LAUSD
students in school year 2004-2005.

In school year 2003-2004, LAUSD offered SES to eligible students in 104 schools that were
identified for school improvement. The LAUSD’s SES Program Specialist stated that the
District allocated about $25 million of Title I funds for SES and reported that 18,558 students
signed up for services from 26 SES providers. In school year 2004-2005, LAUSD offered SES
to eligible students in 111 schools. LAUSD allocated about $44 million of Title I funds for SES
and reported that 28,318 students signed up for services from 24 SES providers.



                                     AUDIT RESULTS


LAUSD used a district-developed standard form to contract with SES providers. The standard
contract incorporated individual student plans containing a statement of specific achievement
goals for the students, how the student’s progress will be measured, and a timetable for
improving achievement. The contract also incorporated an individual service agreement that
described how the specific provider would fulfill the services. We found that, taken together, the
standard contracts, individual student plans, and individual service agreements with PTA for
school years 2003-2004 and 2004-2005 contained the elements required by the applicable ESEA
provisions and Federal regulations. Based on our review of selected invoices, we concluded that
PTA provided SES to LAUSD students for which PTA received payment under the contracts.
We also concluded that PTA provided SES in a manner consistent with contract terms and
Federal requirements, except that 1) PTA did not provide student progress reports to schools
within the timeframe specified by LAUSD and 2) PTA did not ensure that tutors had required
clearances before providing services to students.

The California State Board of Education adopted regulations in January 2005 that require
SES providers to submit annual end-of-fiscal-year reports to CDE. The first report is due on
October 1, 2006 and will cover services provided in school year 2005-2006. The State
regulations list the information to be provided, including beginning and ending scores on
national, state, district, or other assessments in English-language arts and/or mathematics for the
individual students served. Failure to contribute to the academic proficiency for two consecutive
years for a majority of students served, as demonstrated by the assessment scores, is one reason
CDE may remove a provider from the list of approved providers. We concluded that PTA
Final Report
ED-OIG/A09F0013                                                                                      Page 3 of 12


currently maintains the type of data that will be needed for future annual end-of-fiscal-year
reports.

CDE did not explicitly express concurrence with our findings in its comments to the draft report,
but it did describe the corrective actions taken or planned to address each of our
recommendations. CDE’s comments are summarized at the end of each finding and the full text
of the comments is included as an attachment to the report.


FINDING NO. 1 – PTA Did Not Provide Student Progress Reports to Schools
                Within the Timeframe Specified by LAUSD

PTA tutors prepared student progress reports timely, but did not provide the progress reports to
the student’s school within the timeframe specified by LAUSD. Section 1116(e)(3) of the ESEA
lists the elements an LEA must include in agreements with SES providers. One required element
is a description of how parents and teachers will be regularly informed of a student’s progress.
To satisfy this requirement, LAUSD’s standard contract required providers to give parents,
student’s home school, and LAUSD written progress reports for each student. To further define
and implement the requirement, LAUSD included a section on its Supplemental Educational
Services Attendance/Progress Report form for the tutor to record student progress and stated on
the form that “[a] copy of this report must be submitted to the parent and the school after every
15 hours of service.”2

From our review of 17 student files, we concluded that PTA’s tutors completed student progress
reports about midway through the scheduled tutoring period (i.e., after about 15 hours of tutoring
lessons) and that tutors discussed student progress with parents. Since the date of the initial
session and frequency of sessions varied by student, the progress reports were completed at
various times of the year. PTA’s Chief Financial Officer (CFO) stated that it was not feasible to
send the reports individually to each student’s school as tutors completed the reports. Instead,
PTA sent student progress reports to schools after completion of all tutoring sessions for the
school year 2003-2004.3 For school year 2004-2005, PTA planned to send copies of the progress
reports to schools around mid-July, after completion of the student tutoring sessions for the
contract period. Because progress reports were not sent until after the school year, teachers did
not have an opportunity to review the student progress and offer input to the tutoring process
during the year.




2
 The Supplemental Educational Services Attendance/Progress Report is a district-developed form that SES
providers are required to complete and maintain in support of monthly billings. The completed forms show the days
and hours of instruction provided to the student.
3
 We were unable to confirm that the reports had, in fact, been sent to the schools since PTA could not provide
evidence of the distribution and District staff could not corroborate PTA’s statement.
Final Report
ED-OIG/A09F0013                                                                      Page 4 of 12


Recommendation

1.1    We recommend that the Assistant Secretary for Elementary and Secondary Education,
       in conjunction with the Assistant Deputy Secretary for Innovation and Improvement,
       require CDE to take action to ensure that PTA provides student progress reports in a
       manner that is consistent with the terms of its agreements with LAUSD.

CDE Comments

In its comments on the draft report, CDE stated that it will reiterate in a letter to PTA that the
SES provider’s responsibility is to timely submit student progress reports to the school districts
in a matter consistent with agreement terms, and that failure to comply may result in the
termination of the agreement between the district and the provider. In addition, CDE will
provide regional technical assistance at workshops that will address all aspects of providing SES,
including the required elements in a provider/district agreement. CDE also stated that PTA has
implemented a process of providing schools with progress reports after 15 hours of service.
CDE stated that LAUSD reviewed the policies and procedures concerning this issue at its SES
Provider Meeting on August 2, 2005 and LAUSD will again remind providers of the policies and
procedures at the next SES Provider Meeting in October/November 2005.


FINDING NO. 2 – PTA’s Tutors Did Not Have Required Clearances Before
                Providing Services to Students

PTA did not always ensure that tutors obtained California Department of Justice (CDOJ)
clearances before providing services to LAUSD students. LAUSD’s standard contracts required
that SES providers comply with the requirements of California Education Code § § 44237,
35021.1, and 35021.2, which include the requirement to obtain CDOJ clearances. The contracts
also specify that providers must request the subsequent arrest service offered by CDOJ and
required by California Penal Code § 11105.2.

PTA used an electronic database to maintain its list of individuals who were approved to provide
tutoring services under PTA contracts. The database, which contained records for about
7,000 tutors, included a field to denote whether PTA had a CDOJ clearance on file for the
individual. PTA’s CFO estimated that about 300 of the individuals were active tutors for
LAUSD students.

From our review of clearance documentation for the 42 tutors who provided services to the
53 sampled students, we identified two tutors that did not have CDOJ clearances at the time of
our review. The tutors had actually applied for CDOJ clearances in September 2004 and
September 2003, but CDOJ had rejected the applications because of address errors on the
application form and PTA did not take further action to obtain the clearances. The CFO stated
that one tutor was allowed to tutor students without first obtaining a CDOJ clearance because the
individual was a credentialed teacher working in the district who had previously obtained a
clearance through the district. The other tutor was not a credentialed teacher. After advising
Final Report
ED-OIG/A09F0013                                                                       Page 5 of 12


PTA of our findings, it took appropriate action to obtain the required clearances for the two
tutors.

Without the clearances, PTA could unknowingly have individuals with inappropriate
backgrounds providing tutoring services at students’ homes. Also, PTA would not be notified if
an individual was subsequently arrested, because the subsequent arrest service offered by CDOJ
is effective only for individuals who have received a clearance and identified PTA as the
applicant agency on a processed clearance application.

Recommendation

2.1    We recommend that the Assistant Secretary for Elementary and Secondary Education, in
       conjunction with the Assistant Deputy Secretary for Innovation and Improvement,
       require CDE to obtain an assurance from PTA that, in the future, it will adhere to its
       policy and procedures for obtaining required CDOJ clearances for tutors prior to the
       tutors providing SES to students.

CDE Comments

In its comments on the draft report, CDE noted that the California SES provider application
includes an assurance page with numerous assurances, each of which must be checked and
signed by the applicant. One assurance addresses seeking appropriate clearance for the staff
providing direct services to students. CDE will include in its letter to PTA a reminder that PTA
signed the assurance as part of its application. CDE will also inform PTA that another incident
related to lack of appropriate clearance for staff providing direct services to students might
jeopardize its status as an approved SES provider. In addition, CDE stated that PTA
implemented a new code to mark a tutor as having a proper CDOJ clearance and that PTA has
assured CDE that its employees are fully aware that a tutor must have full CDOJ clearance
before they can be assigned to provide SES to students. CDE stated that policies and procedures
on clearances were covered at LAUSD’s SES Provider Meeting on August 2, 2005 and LAUSD
will again remind providers of the policies and procedures at the SES Provider Meeting in
October/November 2005.
Final Report
ED-OIG/A09F0013                                                                         Page 6 of 12




                  OBJECTIVES, SCOPE, AND METHODOLOGY


The objectives of the audit were to determine whether (1) LAUSD’s contracts with PTA for
providing SES contained the elements specified in the ESEA § 1116(e)(3) and applicable Federal
regulations; (2) PTA performed the services for which it received payment under the contracts
and that the services were provided in a manner consistent with the contract terms and Federal
requirements; and (3) PTA collects and maintains the data that will be used by the CDE to
evaluate the quality and effectiveness of the provided services. Our audit covered school years
2003-2004 and 2004-2005.

To achieve our objectives, we gained an understanding of the ESEA sections, Federal
regulations, U.S. Department of Education guidance, and California regulations covering SES.
We reviewed written LAUSD and PTA policies and procedures applicable to the administration
of SES and interviewed LAUSD and PTA personnel who were involved in SES-related
activities. For LAUSD, we gained an understanding of the following activities: determining
student eligibility, recruiting and enrolling students, contracting with providers, participating in
the development of student plans, reviewing student plans submitted by providers, reviewing
provider billings, and monitoring providers. For PTA, we gained an understanding of tutor
recruiting and hiring (including procedures for obtaining CDOJ clearance), contracting with
LAUSD, managing tutors, monitoring tutors’ work performance, billing for tutor services,
developing and maintaining student files (including student plans) and maintaining student
assessment data. We also gained an understanding of PTA's Goldmine database used to store
student and tutor data.

To determine whether PTA performed the services for which it received payment under the
contracts and whether the services were provided in a manner consistent with the contract terms
and Federal requirements, we relied on electronic attendance reports (Excel worksheets) that was
generated by LAUSD from its Student Information System database and provided to PTA for
recording the hours of tutoring provided each month to individual students. To assess the
reliability of the hours reported, we verified the reported hours for the months of February 2004
and March 2005 using information contained in other PTA records. Based on our understanding
of the report and our tests, we concluded that the data was sufficiently reliable to be used in
meeting the audit objectives. To confirm that PTA maintained data that can be used by CDE to
evaluate the quality and effectiveness of the services provided by PTA, we reviewed PTA’s
student assessment data report (Excel worksheet) that was submitted to LAUSD for school year
2003-2004. Our review was limited to confirming that PTA maintained the data in an electronic
format that could be provided to CDE, when requested, and we did not perform tests of the
reliability of the data contained in the report.

We reviewed LAUSD’s contracts with PTA for school years 2003-2004 and 2004-2005 and
compared the contracts’ terms to the elements specified in the ESEA § 1116(e)(3). To assess
whether PTA performed the services for which it received the payment, we reviewed supporting
documentation for two PTA invoices. LAUSD’s invoice log showed that ten invoices, totaling
$575,800, were received from PTA for school year 2003-2004 and seven invoices, totaling
Final Report
ED-OIG/A09F0013                                                                                      Page 7 of 12


$863,236, were received for school year 2004-2005 (as of April 2005). We judgmentally
selected the billing period for each school year that had the largest dollar amount charged for the
period – February 2004 and March 2005 (invoices for these periods totaled $94,120 and
$207,690, respectively).

From PTA’s electronic attendance reports, we identified a total of 960 students who were
included in the two invoices. We reviewed supporting documentation for a sample of
53 students.

                           Number of                                         Additional
                                                Randomly Selected                                 Total Student
    Invoice Month       Students Billed on                                    Students
                                                    Students                                         Sample
                           the Invoice                                        Selected
February 2004                    394                        9                     10 (a)                 19
March 2005                       566                      30                       4 (b)                 34
Total                            960                      39                      14                     53
(a) The 10 additional students were judgmentally selected from the 394 students because the students had the same
    last name and address as another student who received services during the same billing period. PTA does not
    allow group tutoring (i.e., charging four hours when tutoring two children at the same time during a two-hour
    session).
(b) The four students included in the March 2005 invoice who had received services in February 2005 (late billing).


For each sampled student, we reviewed student attendance data, tutor, and parent signatures on
PTA’s “Tutoring Signature Sheet,” and confirmed that the students were identified by LAUSD
as eligible for SES. For each selected billing period, we also reviewed the invoice submitted to
PTA by the highest paid tutor to assess the reasonableness of the hours charged and compared
the tutoring hours to student attendance reports and detailed documentation that PTA provided
with invoices submitted to LAUSD for payment.

To determine whether PTA’s services were provided in a manner consistent with the contract
terms and Federal requirements, we reviewed the provider application packages (2003 and 2004)
that PTA submitted to CDE and documentation related to the reporting of student progress and
alignment of services to LEA and State instruction and content standards.4 We also reviewed
PTA’s student files for 17 students (6 students were randomly selected from the 536 LAUSD
students who received SES in school year 2003-2004 and 11 students were randomly selected
from the 1,172 students who received SES in school year 2004-2005). To determine whether
tutors had received appropriate CDOJ clearances, we reviewed CDOJ documentation for 42
tutors who provided tutoring services to the 53 sampled students for the February 2004 and
March 2005 invoices.

We performed our fieldwork at PTA’s corporate office in Brea, California, and the
administrative offices of LAUSD in Los Angeles, California. An exit conference was held with
an official from PTA on August 12, 2005. An exit conference was held with CDE officials on

4
 The ESEA § 1116(e)(5)(B) states that a provider must ensure that instruction provided and content used by the
provider are consistent with the instruction provided and content used by the LEA and State, and are aligned with
State student academic achievement standards. Our review was limited to confirming that PTA had credible
documentation showing that instructional materials content was aligned with State standards.
Final Report
ED-OIG/A09F0013                                                                      Page 8 of 12


August 10, 2005. We performed our audit in accordance with generally accepted government
auditing standards appropriate to the scope of our audit objectives.



                            ADMINISTRATIVE MATTERS



Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective actions to be taken will be made by the appropriate Department
officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
officials who will consider them before taking final Departmental action on this audit.

                              Dr. Henry L. Johnson
                              Assistant Secretary
                              Office of Elementary and Secondary Education
                              U.S. Department of Education
                              FB6, Room 3W315
                              400 Maryland Avenue, SW
                              Washington, DC 20202

                              Nina Rees
                              Assistant Deputy Secretary
                              Office of Innovation and Improvement
                              U.S. Department of Education
                              FB6, Room 4W317
                              400 Maryland Avenue, SW
                              Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions under the Act.

                                             Sincerely,

                                             /s/
                                             Gloria Pilotti
                                             Regional Inspector General for Audit
Final Report
ED-OIG/A09F0013                                         Page 9 of 12


                                                     ATTACHMENT




                  CDE Comments on the Draft Report
                                    October 11, 2005



Gloria Pilotti, Regional Inspector General for Audit
United States Department of Education
Office of Inspector General
501 I Street, Suite 9-200
Sacramento, CA 95814

Dear Ms. Pilotti:

This is the California Department of Education’s (CDE) response to the United States
Department of Education (ED) Office of Inspector General’s (OIG) draft audit report
entitled, “Professional Tutors of America and Los Angeles Unified School District’s
Compliance With Supplemental Educational Services Provisions.” This response
incorporates information from the CDE, Los Angeles Unified School District (LAUSD),
and Professional Tutors of America (PTA). State Superintendent of Public Instruction
Jack O’Connell has asked me to respond on his behalf.

Finding No. 1 – PTA Did Not Provide Student Progress Reports to Schools Within
the Timeframe Specified by LAUSD

Recommendation 1.1:

Ensure that PTA provides student progress reports in a manner that is consistent with
the terms of its agreements with LAUSD.

       Corrective Action Plan:

       CDE will send a letter to PTA reiterating that as an approved supplemental
       educational services (SES) provider its responsibility per the SES Non-
       Regulatory Guidance and the California Code of Regulations, Title V, is to timely
       submit student progress reports to the school districts in a matter consistent with
       agreement terms; failure to comply may result in the termination of the
       agreement between the district and the provider. Furthermore, the CDE will
       provide regional technical assistance via workshops that will address all aspects
       of providing SES (including the required elements in a provider/district
       agreement).
Gloria Pilotti, Regional Inspector General for Audit
October 11, 2005
Page 2



       Beginning with the 2005-06 school year, PTA’s corporate office implemented a
       process of providing the appropriate school with copies of the Progress Report
       after 15 hours of service.

       Additionally, at the LAUSD SES Provider Meeting on August 2, 2005, LAUSD
       reviewed all policies and procedures concerning this issue. All providers will be
       reminded again of policies and procedures at the next LAUSD SES Provider
       Meeting in October/November 2005.

Recommendation 2.1:

Obtain an assurance from PTA that, in the future, it will adhere to its policy and
procedures for obtaining required California Department of Justice (CDOJ) clearance for
tutors prior to the tutors providing SES to students.

       Corrective Action Plan:

       The California SES provider application includes an assurance page with
       numerous assurances, each of which must be checked and signed by the
       applicant. One of the assurance items deals with seeking appropriate clearance
       for the staff providing direct services to students. In its applications, PTA signed
       off on the assurance page. Thus, the CDE will include in its letter to PTA a
       reminder that it signed the assurance as part of its application. The CDE will also
       indicate to PTA that another incident related to lack of appropriate clearance for
       staff providing direct services to students might jeopardize its status as an
       approved state SES provider per the California Code of Regulations, Title V,
       governing implementation.

       PTA implemented a new code to mark a tutor as having proper CDOJ clearance.
       PTA assures their employees are fully aware that a tutor must have full CDOJ
       clearance before they can be assigned any LAUSD students (or any students
       through SES contracts with other local districts).

       Additionally, at the LAUSD SES Provider Meeting on August 2, 2005, LAUSD
       reviewed all policies and procedures concerning this issue. All providers will be
       reminded again of policies and procedures at the next LAUSD SES Provider
       Meeting in October/November 2005.
Gloria Pilotti, Regional Inspector General for Audit
October 11, 2005
Page 3


If you have any questions regarding CDE’s response, please contact Kim Sakata, Audit
Response Coordinator, Audits and Investigations Division, at (916) 323-2560 or by
email at ksakata@cde.ca.gov.

Sincerely,


/s/
GAVIN PAYNE
Chief Deputy Superintendent of Public Instruction

GP:ks
